<html>
<title> - NOMINATION OF CHRISTOPHER SHARPLEY TO BE THE INSPECTOR GENERAL OF THE CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 115-303]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-303

                   NOMINATION OF CHRISTOPHER SHARPLEY
     TO BE THE INSPECTOR GENERAL OF THE CENTRAL INTELLIGENCE AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, OCTOBER 17, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


        Available via the World Wide Web: http://www.govinfo.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-396 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5334233c13302620273b363f237d303c3e7d">[email&#160;protected]</a>                   
                    
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                               
                               
                               CONTENTS

                              ----------                              

                            OCTOBER 17, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Mark R., Vice Chairman, a U.S. Senator from Virginia.....     2

                                WITNESS

Sharpley, Christopher, nominated to be Inspector General of the 
  Central Intelligence Agency....................................     3
    Prepared statement...........................................     7

                         SUPPLEMENTAL MATERIAL

Project on Government Oversight article dated October 16, 2017...    17
Questionnaire for Completion by Presidential Nominees............    36
Additional Prehearing Questions..................................    50
Questions for the Record.........................................    69

 
                   NOMINATION OF CHRISTOPHER SHARPLEY
     TO BE THE INSPECTOR GENERAL OF THE CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                       TUESDAY, OCTOBER 17, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Risch, Collins, Lankford, 
Cotton, Feinstein, Wyden, Heinrich, King, Manchin, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order. I'd 
like to welcome our witness today, Christopher R. Sharpley, 
President Trump's nominee to be the next Inspector General of 
the Central Intelligence Agency. Chris, congratulations on your 
nomination.
    I'd like to start by recognizing the family that you 
brought with you here today. I understand your wife Kimberly is 
here.
    Mr. Sharpley. Yes, sir.
    Chairman Burr. As well as your sons Stefan and Aidan.
    Mr. Sharpley. Yes.
    Chairman Burr. Stefan, Aidan, give me a wave. OK, good.
    [Stefan and Aidan wave.]
    Good.
    And your daughter Gillian and her husband James, good. And 
of course, your mother Joyce. Welcome.
    Our goal in conducting this hearing is to enable the 
committee to consider Mr. Sharpley's qualifications and to 
allow for thoughtful deliberation by our members.
    Chris already has provided substantive written responses to 
85 questions presented by the committee and its members. Today, 
of course, members will be able to ask additional questions and 
to hear from Mr. Sharpley in this open session.
    Mr. Sharpley earned his B.A. from American University and 
received his master's degree from the Naval Postgraduate 
School. In 1981, he received a commission from the U.S. Air 
Force, where he trained as a special agent and a 
counterintelligence officer in the Air Force Office of Special 
Investigations. Chris continued to serve in the Air Force in a 
variety of posts, including as Director of Security, until he 
retired honorably from the Air Force in 2002.
    Immediately following his retirement, Chris joined the 
Office of the Inspector General of the Department of Energy as 
a civilian Federal special agent.
    Since then, Chris has worked as the Deputy IG for 
Investigations and Inspections for the Department of Energy and 
helped to build the new OIG offices at the TARP program and the 
Federal Housing Authority. In 2010, Chris received the 
Presidential Rank Award for meritorious service for that work.
    In 2012, Chris retired as a Federal civilian law 
enforcement officer and started his career at the Central 
Intelligence Agency. Chris, if you don't mind me saying, I 
don't think you're very good at retiring.
    [Laughter.]
    From 2012 to 2015, Chris served as Deputy Inspector General 
at the CIA. Since 2015, Chris has served as both Deputy and 
Acting IG of the CIA.
    Chris, independent and empowered Inspector Generals are 
critical to the integrity and efficient management of the 
intelligence community. And I trust that you will lead the 
CIA's office with integrity and will ensure your officers 
operate lawfully, ethically and morally.
    As I mentioned to other nominees during their nomination 
hearing, I can assure you that this committee will continue to 
faithfully follow its charter and conduct vigorous and real-
time oversight over the intelligence community, its operations, 
and its activities. We will ask difficult and probing questions 
of you, your staff, and will expect honest, complete and timely 
responses.
    Chris, I look forward to supporting your nomination and 
ensuring its consideration without delay. I want to thank you 
again for being here today, for your years of service to your 
country, both in law enforcement and in our military, and I 
look forward to your testimony.
    I now recognize the distinguished Vice Chairman for any 
opening statement he might make.
    Mr. Sharpley. Thank you, Mr. Chairman.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. And welcome, 
Mr. Sharpley. Good to see you again; and welcome, as well, to 
your family. Congratulations to your nomination to serve as 
Inspector General of the Central Intelligence Agency.
    I believe that the job of the Inspector General is critical 
to the effective operation of any agency. This committee relies 
upon the Inspector General of the intelligence agencies to 
ensure that the IC organizations are, one, obviously, using 
taxpayer dollars wisely; conducting their activities within the 
rule and spirit of the law; and supporting and protecting 
whistleblowers, whistleblowers who report fraud, waste and 
abuse. These IG functions are even more important in an 
organization like the CIA, which by necessity does not operate 
in the public.
    I appreciate that you're the third IG nominee to come 
before this committee this year. I wish to express my hope that 
we'll soon receive from the President a nominee for the 
position of the IG for the overall intelligence community. This 
position has been vacant since February, and I know you can't 
affect this directly, but I'm very concerned about the number 
of changes occurring there.
    As I mentioned, Mr. Sharpley, I appreciated our meeting 
earlier this month. We talked about a number of important 
issues that you will face as the CIA IG I want to reiterate 
some of our discussion and ask you, for some of these same 
questions that we had in private, to address these questions in 
public.
    One, we discussed the importance of supporting and 
protecting whistleblowers. Today, I want to hear more about 
your plans to ensure all CIA employees know their rights and 
responsibilities, as well as the processes for them to report 
waste, fraud and abuse. And I'd like to hear a greater 
commitment from you on this issue.
    Your job--and we talked about, again, this in our 
conversation--is to be, I think, hard-hitting, to find 
problems, uncover abuses and recommend fixes. And you must 
guard your independence fiercely. I'd like to hear you reaffirm 
that that's also your view of your role in this terribly 
important position.
    As you know as well, this committee completed a report on 
CIA's detention and interrogation program, and specifically 
shared it with the Executive Branch to ensure that such abuses 
are not reported in the future. You and I discussed how your 
office both lost and then found its copy, the copy of the 
report, and how you decided to return it to the committee. We 
talked about the fact that I disagreed with your subsequent 
decision to return it. Today and in public, please describe how 
the report came to be lost and why you made the decision to 
return it to the committee.
    Finally, I want to get your reassurances that you will 
support this committee's investigation into Russian 
interference in the 2016 U.S. presidential election, something 
the Chairman and I and this committee, I think, has done some 
very good work on.
    Again, Mr. Sharpley, thank you for, echoing what the 
Chairman said, your service to our country. Thank you for being 
here today. Thank you for agreeing to accept another 
opportunity to continue to serve our country. I look forward to 
today's discussion.
    Thank you, Mr. Chairman.
    Mr. Sharpley. Thank you, Senator Warner.
    Chairman Burr. Thank you, Vice Chairman.
    Mr. Sharpley, would you stand, please, and raise your right 
hand? Do you solemnly swear to tell the truth--to give this 
committee the truth, the full truth and nothing but the truth, 
so help you God?
    Mr. Sharpley. I do, sir.
    Chairman Burr. Please be seated.

 TESTIMONY OF CHRISTOPHER SHARPLEY, NOMINATED TO BE INSPECTOR 
           GENERAL OF THE CENTRAL INTELLIGENCE AGENCY

    Chairman Burr. Chris, before we move to your statement, it 
is practice of this committee that I ask you five standard 
questions that the committee poses to each nominee who appears 
before us. They just require a simple yes or no answer for the 
record.
    Do you agree to appear before the committee, here or in any 
other venue, when invited?
    Mr. Sharpley. Yes.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the committee and designated 
staff when invited?
    Mr. Sharpley. Yes.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the committee in order for it to 
carry out its oversight and legislative responsibilities?
    Mr. Sharpley. Yes, I do.
    Chairman Burr. Will you both ensure that your office and 
your staff provide such materials to the committee when 
requested
    Mr. Sharpley. Yes, I will.
    Chairman Burr. Do you agree to inform and fully brief, to 
the fullest extent possible, all members of the committee of 
intelligence activities and covert actions, rather than limit 
that only to the Chair and the Vice Chair?
    Mr. Sharpley. Yes, I do.
    Chairman Burr. Thank you very much.
    We'll now proceed to your opening statement, after which 
I'll recognize members by seniority for five-minute question 
time. Chris, the floor is yours.
    Mr. Sharpley. Thank you, Chairman Burr. Chairman Burr and 
Vice Chairman Warner and members of the committee: I want to 
thank you for affording me the opportunity to appear before you 
today, as you consider my nomination to be the Inspector 
General of the Central Intelligence Agency. I'm honored and 
humbled that President Trump has placed his confidence in me to 
tackle the challenges of this important position.
    Chairman, if I may, at the risk of being redundant, I would 
like to speak to my background and experience that I believe 
qualify me to serve as the CIA Inspector General. I am grateful 
to have had an opportunity to serve our Nation over the past 36 
years, a journey that began shortly after receiving a 
commission in the United States Air Force in 1981.
    My initial training was as a special agent 
counterintelligence officer in the Air Force Office of Special 
Investigations. The skills that I acquired prepared me for 
challenging assignments during my ten years of active-duty 
service and also prepared me for my service for another ten 
years in the Air Force Reserves.
    My assignments including commander and director of 
security, leading teams of counterintelligence and security 
specialists in support of highly classified special access 
programs. I retired honorably from the Air Force Reserves in 
2002.
    Upon transitioning to the part-time reserves, I began my 
full-time employment as a civilian special agent at the 
Department of Energy Office of Inspector General. I rose 
through the ranks to become the Deputy Inspector General for 
Investigations and Inspections, with program leadership 
responsibilities covering the Nation's nuclear weapons complex 
and system of national laboratories.
    I was privileged to have been asked by two new Inspectors 
General, at the Special Inspector General for Troubled Asset 
Relief Program and the Federal Housing Finance Agency, to 
assist them in building brand new Offices of Inspector General, 
focused on detecting and countering fraud in the efforts of the 
Federal Government to stabilize U.S. banking, securities and 
financial markets during the economic crisis of the 2008-2012 
timeframe.
    In 2010, I received a Presidential Rank Award for 
meritorious service for my leadership in building investigative 
programs that identified billions in fraud and supported 
successful prosecutions that often returned significant dollars 
to the U.S. Treasury.
    In 2012, I retired from Federal service as a civilian 
special agent law enforcement officer. That is when my 
experience at CIA began. I was asked by then-CIA Inspector 
General David Buckley to compete for his deputy Inspector 
General position.
    Mr. Buckley informed me that he hoped I would bring the 
best practices I had gleaned from other IG-related leadership 
roles to be applied at the CIA Office of Inspector General. I 
answered that call and entered back into Federal service in 
2012, where I served as Mr. Buckley's deputy until his 
retirement in January 2015, and where I have served as Deputy 
and Acting Inspector General until now.
    Mr. Chairman, I strongly believe in CIA's mission to 
preempt threats to our Nation and to further U.S. national 
security objectives. I also believe the mission of the 
Inspector General is essential at CIA. I have and continue to 
stand firmly behind the outstanding work of the CIA Office of 
Inspector General team of auditors, inspectors, investigators 
and support staff.
    As Acting Inspector General, I have issued over 100 
classified reports, and have made nearly 350 recommendations to 
CIA leadership to strengthen key programs and operations and 
promote economy and efficiency across the CIA mission.
    I have further strengthened processes and procedures within 
the Office of Inspector General by incorporating professional 
standards and best practices utilized by Offices of Inspector 
General across the Federal community.
    I have endeavored, I believe successfully, to establish a 
reputation within CIA as an independent, objective and honest 
Acting Inspector General who does not hesitate to tackle the 
hard issues, speaks truth to power and is trusted by CIA 
officers assigned around the world and by the Director and his 
senior team. And it is my hope, as it certainly has been my 
objective, to gain the trust of this committee.
    If confirmed, I will continue to keep the committee 
informed of Office of Inspector General work, and I will 
continue to be responsive to committee concerns and queries.
    As I observe world events, it strikes me that the mission 
of the CIA has never been more important than it is right now. 
National security risks associated with North Korea, Iran, 
Russia and China, to name but a few, require CIA's keen 
attention.
    As these risks increase and the world threat matrix rapidly 
changes, CIA appropriately responds, and, I believe, 
independent, robust and objective oversight becomes more vital.
    I have observed during my career that classified high-risk 
missions, big and small, do not receive the same level of 
public scrutiny and feedback that unclassified activities 
receive. And clearly, there's good reason for that. This is why 
a capable Inspector General is needed, one who understands 
intelligence activities and who will independently and 
effectively audit, evaluate and investigate to ensure mission 
integrity and efficiency.
    I'm confident that the experiences and skills I've acquired 
throughout my career, and in particular as Acting Inspector 
General at CIA, have prepared me to fulfill the 
responsibilities of CIA Inspector General.
    Mr. Chairman, thank you again for this opportunity to 
testify before you and the committee. I'm pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Sharpley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Mr. Sharpley, thank you for that testimony.
    Before we begin, it's my intention to move to a committee 
vote on this nomination early next week. Therefore, for 
planning purposes I would encourage members, if they have 
additional questions for the record after today's hearing, that 
those be submitted by the close of business tonight. I would 
also remind members that we are in open session. Therefore, 
questions should reflect that fact.
    The Chair would recognize himself for up to five minutes.
    As CIA's Inspector General, you'll be responsible for 
overseeing a large organization whose work in most cases must 
be done in secret. But the work of the IG's office can provide 
that critical point of transparency for employees and, quite 
frankly, for this committee. How do you plan to continue your 
efforts to ensure that all CIA employees and contractors are 
fully aware of the CIA's OIG and its function?
    Mr. Sharpley. Yes, sir. Within CIA, there is an awareness 
program. People are required to take certain training on an 
annual basis. The procedures and processes for making a 
complaint to the CIA Inspector General are incorporated in that 
training.
    We have a significant outreach effort that--we speak with 
all incoming employees, new employees, and we give briefings on 
whistleblower, whistleblower reprisal whenever the 
opportunities arise at conferences, et cetera.
    Beyond that, we have an extensive. I think a very mature, 
I'm certain a very mature, whistleblower hotline program and 
whistleblower retaliation program. I have had the opportunity, 
Senator Burr, over the years to build two whistleblower hotline 
programs from the ground up, at Special Inspector General's 
office, also at FHFA, and to make improvements to two others, 
one at Energy and the one here at CIA.
    I'm very proud of the practices that we have put in place 
that now give CIA officers and those contractors with staff-
like access to systems the ability to make a confidential, 
anonymous or an open complaint to us at any given time.
    The processes I've put in place ensure that every complaint 
that's received and concern that's received is given a review 
by the senior staff of the Office of Inspector General so that 
particular skill sets, such as audits, inspections or 
investigations, are able to look at an issue differently, with 
a different perspective, and say whether they think that that 
particular complaint or concern should be handled in this way 
or that way.
    Chairman Burr. What do you see as the biggest challenge for 
the CIA's OIG?
    Mr. Sharpley. Our biggest challenge, sir, is one of 
recruitment and retention. We use the systems that are in place 
by the CIA, their recruiting and onboarding processes, to also 
recruit our folks. And there is a, in my opinion, inefficient 
process of onboarding people at CIA. And it's one that I feel 
so very strongly about that I've recently initiated a review to 
examine.
    For every person that I want to bring on, so if I can--if I 
identify an individual that meets a certain requirement to be 
an auditor or an investigator--I have to give three conditional 
offers of employment. So I know that, statistically, two out of 
the three I will lose over the period of time from the time I 
give the conditional offer to the time that they would onboard.
    And for every conditional offer of employment, I have to 
conduct five interviews. So to fill 10 slots in an organization 
that does receive turnover, because we're highly trained in the 
Office of Inspector General and many other mission areas would 
like the services of my folks--so if I want to fill 10 slots, I 
have to offer 30 conditional offers of employment. And in order 
to do 30 COEs, I need to do 150 interviews.
    That's an onerous process and an onerous statistical 
outlay. So our biggest challenge right now is the process of 
onboarding folks. And I would say that is the most prominent of 
our challenges.
    Chairman Burr. Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    I want to go back, first of all, to the discussion we had 
in the office and following up on the Chairman's comments about 
protecting whistleblowers. I'd like to again--you mentioned the 
fact of building some of these whistleblower programs at other 
agencies. I'd like you to talk a little bit more about what 
else you could do, particularly with the unique nature of the 
CIA since it has to operate in private, what you can do not 
only on the hotline, but also on programs in terms of 
preventing retaliation.
    Specifically, in answers to written questions you said you 
would try to beef up these programs and beef up whistleblower 
protections. You said--but rather than offering some specifics, 
you talk about bringing in an outside expert to help advise 
you. Could you also describe what kind of outside expert that 
would be? Would it be somebody from government? And take us 
through your commitment to the whistleblower protections; and 
particularly, since we've seen increased amounts, I believe, of 
retaliation and reprisals, how we can prevent that on a going-
forward basis to those whistleblowers?
    Mr. Sharpley. Thank you, Senator.
    Whistleblowing and the programs that the Offices of 
Inspector General put in place are essential to the success of 
any Office of Inspector General. In every program that I have 
built, you need to build a program where there's confidence by 
whistleblowers or those raising concerns about a particular 
issue that they feel, and are, in fact, comfortable providing 
information. If they're not comfortable providing information, 
they won't come to you, and then you can't fulfill your mission 
of exploring fraud, waste, and abuse and mismanagement and 
these issues.
    So it is--it's critical to the success of every Office of 
Inspector General, in particular at CIA because of the nature 
of the mission, meaning that everything's compartmented and 
people are scattered around the world doing mission.
    The first thing that I did to improve the whistleblowing 
program at CIA is ensure that we had a robust outreach program. 
Senator Warner, I described a little bit earlier today about 
what that program was about and we talked in private. But the 
main thrust of that outreach is to ensure that, no matter where 
a CIA officer or a CIA contractor with access to our system is 
located around the world, that they can make a confidential, 
anonymous or open complaint or sharing of concern with our 
office and they are guaranteed confidentiality if they seek it.
    Vice Chairman Warner. But how do you go about improving? 
You said you would look at outside experts. Talk, speak to that 
for a moment, because I only have two minutes left.
    Mr. Sharpley. All right, Senator. I am very comfortable, 
sir, with the program that we have, that it is effective. But 
we know from the type of work that we're in, which is 
independent assessments and evaluations of the effectiveness of 
the various programs around--so I know that, even though I'm 
comfortable with the program that I have, it would be 
appropriate and prudent for me to invite others in.
    There are individuals within the IG community that are 
known to have very solid, very large programs. Some of them are 
Postal, some of them are Department of Energy. When I refer to 
this in my pre-hearing questionnaire, I've already asked my 
chief of staff to reach out to these groups, these individuals, 
and ask for an independent assessment of the programs that I've 
put in place--not just our outreach programs, but our education 
program, our education effort, and our ability to assess 
objectively and independent each complaint as it comes in to 
ensure it's handled in a timely fashion and that individuals, 
if they're concerned about retaliation, that we move promptly 
as a priority to address those issues, so that any potential 
wrongdoing or adverse personnel action against them can be 
prevented promptly and quickly.
    Vice Chairman Warner. I know a number of my members on this 
side of the aisle are going to ask somewhat in depth about the 
RDI study, and I will allow them to get into the point of your 
reasoning for returning it.
    But one thing that did come up, obviously, was how the 
report was lost and then re-found. I think I owe you the 
opportunity to try to offer me the same--offer the public the 
same explanation you offered me in my office. And then, the 
fact that it was lost and found, was anyone held accountable 
for that losing of it as well?
    Mr. Sharpley. Thank you, Senator Warner. I'd be happy to 
discuss those issues. I know that is on the minds of a number 
of the committee members, and I understand. It's an important 
issue and it's an important report. So if I briefly go through 
the explanation:
    We received a copy of the committee's RDI study--6,000-
page, highly classified--in December of 2014 and it was 
provided to us on a disk. The then-Inspector General ordered 
that the report be uploaded to a classified Office of Inspector 
General system and that was done.
    Shortly thereafter, we received guidance that the report 
should not be placed into any system because of an ongoing 
litigation, a FOIA litigation, Freedom of Information Act 
litigation in the D.C. circuit, with the Department of Justice 
and others. So an e-mail was sent back to the organization that 
had uploaded, back to our investigative organization, where the 
classified system is held, to delete the report and to take the 
disk containing the study and place it in a classified safe.
    The report was deleted from the system. But the individual, 
the IT administrator responsible for the uploading of the 
report and for handling the disk, the media, did not receive 
that e-mail.
    The processes in place at CIA, and at CIA OIG, when we take 
a report off of media in order to control classified when we 
place it onto our classified systems is to destroy that 
diskette.
    So, some time later, several months later, when requested 
did we have the disk, where was it, as I recall to the best of 
my knowledge, I asked where the disk was. Nobody could find the 
disk. I informed the committee that we could not find the disk. 
Then I initiated an investigation, an internal investigation to 
ensure that the disk was nowhere, to find out exactly what 
happened to it.
    Testimony given to us by the IT administrator was that the 
disk had been shredded and he was--this particular IT 
administrator was unaware of the deletion of the document from 
our system, and had shredded the disk.
    Several months later, during the course of an individual 
departing, leaving employment and retiring, they were going 
through their classified safe and they found the disk. 
Coincidentally and a bit embarrassing--it was an embarrassment 
to me--coincidentally, the litigation with the--on the FOIA 
issue had ceased at that time. It was done, and part of the 
conclusion of that litigation was that the document was a 
Congressional document.
    I informed the committee that we had found the disk. I also 
opened another investigation to continue to find out what 
happened, how was it that we could find testimony that this 
diskette was shredded when it had not been shredded.
    The bottom line was we found the individual, who had since 
left employment from the Office of Inspector General and the 
CIA, and that person told us that it was essentially a guess. 
They don't remember actually shredding the disk, but they felt, 
because they had shredded other media, they had shredded that 
disk as well.
    It's embarrassing and I have apologized. And it was also 
right around that time that, in response to a request from the 
chair of the committee that produced the study to return that 
study on the disk, that I made an independent judgment to 
return the disk. I stand by that judgment. The judgment and 
decision to return the disk is not a reflection on what I feel 
the quality of the report was or the efforts that went into it. 
It was a five-year effort, a 6,000-page report, and I 
understand its value to the committee and its value for 
history's sake.
    I do have an unclassified copy of the executive summary, as 
well as a classified copy of the executive summary, in my 
possession.
    So those were--those were the circumstances. The individual 
responsible for giving the wrongful, if you will, or the 
incorrect testimony is no longer employed with us. I have since 
changed the processes at CIA OIG to ensure that something like 
this cannot happen again, so that there's a second decision 
level on all shredded media, even though the processes--we've 
never undergone something like that in the past. That process 
is in place. I stand by it, and I am convinced that nothing 
like this would ever happen again.
    Chairman Burr. Senator Risch
    Senator Risch. Mr. Sharpley, thank you for taking the time 
to meet with me. I thought you were candid and answered the 
questions appropriately and fully as far as I was concerned. So 
thank you for that.
    Mr. Chairman, any other questions I have would be for a 
classified setting. I will save them for either there or submit 
them for the record in a classified fashion. Thank you.
    Mr. Sharpley. Thank you, Senator.
    Chairman Burr. Thank you, Senator.
    Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman.
    And I thank you for meeting with me. I did hear the disk 
story from you. I have one question: When did you inform the 
committee that you had found the disk?
    Mr. Sharpley. Senator, I don't have the specific date in 
front of me, but as soon as I found the disk I called up and 
informed the staff chiefs about that I found it.
    Senator Feinstein. If you could find the day, I would 
appreciate knowing this.
    Mr. Sharpley. Yes, ma'am.
    Senator Feinstein. I have a special interest in this. I was 
chairman of the committee when the report was done, and have a 
great belief--to my knowledge, not a fact has been refuted in 
that 7,000- page report or the 500-page summary to date.
    So the point of distributing it to the departments was in 
the hope that they would read it, not look at it as some poison 
document, and learn from it. I very much doubt that that has 
happened, and I really look forward to its declassification. I 
think the time is coming very shortly when it should be 
declassified, and I'm heartened to see that, increasingly, 
members of Congress agree with that.
    So let me, if I can, go to a document that I just received 
having to do with a whistleblower situation. And I'm going to 
read a little bit and then ask you for your comment. It points 
out that ``The Sharpley nomination comes at a time when the 
intelligence community's handling of whistleblowers has begun 
to attract questions from lawmakers and the public.'' They 
point out one instance of a man by the name of Ellard and says 
that this highlights the community's continuing struggle to 
deal with the issue.
    The document, dated February 2017, appears on the official 
letterhead of the Office of Inspector General of the 
Intelligence Community and details what it describes as serious 
flaws in procedures used to investigate retaliation cases 
across the intelligence community. Bearing the title, 
``Evaluation of Reprisal Protections Pertaining to 
Whistleblowers with Access to Classified Information,'' it is 
unclassified. The author's name is redacted.
    I would ask that you send a copy of that document to our 
office, to the Intelligence Committee's office.
    Mr. Sharpley. Senator, I am unfamiliar with that document. 
I am not aware of its contents or really can speak to----
    Senator Feinstein. Have you looked for it? It's on the 
Office of the IG of the--on the letterhead of the IG of the 
Intelligence Community.
    Mr. Sharpley. Yes, Senator. The ICIG did not make me aware 
of it as the Acting IG at CIA. So this is the--this is the 
first I'm hearing of this particular program.
    But there's something you said, Senator, if I may respond.
    Senator Feinstein. Well, let me read the conclusion.
    Mr. Sharpley. Yes, ma'am.
    Senator Feinstein. Because it's stark: ``The deficiencies 
in reprisal protections policies, procedures and standards in 
the evaluated agencies are causing a failure to provide 
reprisal protections for individuals making protected 
disclosures,'' end quote.
    In the context of the document, quote, ``'Protected 
disclosures,''' end quote, ``refer to legally sanctioned 
revelations of alleged wrongdoing by intelligence employees to 
their superiors or others in the government designated to 
receive the information.''
    The document states that, and I quote, ``A complainant 
alleging reprisal for making a protected disclosure has a 
minimal chance to have a complaint processed and adjudicated in 
a timely and complete manner,'' end quote. So then it says--and 
then I'll let you speak--``In response to damaging leaks, then-
President Obama issued Presidential Policy Directive 19, PPD/
19, parts of which were enacted into law, establishing 
procedures under which whistleblowers could report waste, fraud 
and abuse without fear of retaliation.''
    The document I'm reading from also has a couple of cases of 
people that have been retaliated against that I won't go into 
right now. But I'm interested that you have not seen this 
document.
    Mr. Sharpley. Yes, Senator Feinstein. Thank you.
    Senator Feinstein. So do you know of which--of what I am 
speaking?
    Mr. Sharpley. Senator, I do not. I do not--I'm not in 
possession of that document. I am unaware of it. Senator----
    Senator Feinstein. Well, let me give you the title. It says 
``CIA Inspector General Nominee Has Three Open Whistleblower 
Retaliation Cases Implicating Him.'' It's by a man by the name 
of Adam Zagorin and this is the Project on Government 
Oversight. That's the letterhead.
    So what do you know about this, and three cases?
    Mr. Sharpley. Thank you, Senator Feinstein.
    I recently read an article by this gentleman. Senator, I'm 
unaware of any open investigations on me, the details of any 
complaints about me. So it's hard for me to respond to that. 
But I would say, if there are complaints, if there are 
investigations out there and I'm unaware of it, that wouldn't 
be--I put it this way: I support a process that's in place that 
would protect the confidentiality of anyone or the anonymity of 
anyone who wanted to bring a complaint forward on an Acting IG 
or anybody else, any other official.
    As an Acting Inspector General who works in the world of 
confidentiality, anonymity, etcetera, I think it's very 
important that we recognize these processes and that we, 
frankly, as I said before, we honor them. They're our bread-
and-butter. But I can't speak to specifics because I don't know 
about it, Senator.
    Senator Feinstein. No, I understand what you're saying.
    Mr. Chairman, I'd ask that this document be put in the 
record so that Mr. Sharpley can take a good look at it.
    And perhaps you would let us know in writing what is fact 
and what is fiction.
    Mr. Sharpley. I would be pleased to do that, Senator 
Feinstein. If I may take one moment, with respect to the 
document you're referring to, that it has done an assessment 
of, you know, that there's a minimal ability of people who have 
been retaliated against to have their particular issue looked 
at in a timely fashion, and this is across the ICIG. I can't 
speak for the rest of the Inspectors General across the IC. I 
can speak for the CIA Office of Inspector General, and I 
challenge the validity of those statements. I feel very 
strongly about our whistleblower retaliation program and our 
whistleblower hotline program. We handle all, all concerns, 
whether they're involving a potential crime or mismanagement, 
or about an individual, under the quality standards that are 
put out from the Council of Inspectors General on Integrity and 
Efficiency.
    I'm very proud of our program. So I don't know where that's 
coming from. I'm unaware of any assessments that have been 
accomplished on the CIA OIG from the outside, for anyone to 
make those, those claims.
    Senator Feinstein. Thank you.
    Chairman Burr. At the Senator's request, without objection, 
it will be included into the record.
    [The material referred to follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. I would also ask staff, if I understood 
Senator Feinstein's reading of this document, it is the ICIG 
who holds that document; it is not the CIA IG So I would say to 
staff, we need to request that document from the Intelligence 
Community's IG, okay?
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Sharpley, just to close out this line of questioning, 
without commenting directly on any specific allegations or 
claims that may or may not have been made against you, have you 
ever retaliated against any whistleblower either within the 
CIA's IG's office or any other Federal agency?
    Mr. Sharpley. No, Senator, I have not.
    Senator Collins. Thank you.
    Mr. Sharpley, I want to commend you for being a very 
productive Inspector General. As I understand it, the CIA 
Office of Inspector General has issued more than 100 audits and 
inspection reports and made more than 340 recommendations to 
the agency to improve efficiency and effectiveness in just the 
last year.
    One of the committee's top priorities is to make sure that 
each of the intelligence agencies is doing everything that it 
can to minimize the risk posed by insider threats. Insiders 
have repeatedly exposed devastating amounts of highly 
classified information. I noted, therefore, with great interest 
that your office conducted a review of the agency's insider 
threat programs and activities.
    Without getting into any classified information, could you 
confirm whether the agency has fully implemented all of the 
IG's recommendations with respect to that audit or inspection 
regarding insider threats?
    Mr. Sharpley. Yes, Senator Collins. Thank you very much. 
It's a very important question and this is an extremely 
important issue having to do with CIA mission. They have not 
implemented all of our open recommendations.
    Some time ago, a few years back, I initiated an insider 
threat initiative, as we've referred to it, where we've issued 
over 26 reports and 64 recommendations addressing a number of 
areas in insider threat, having to do with security clearances, 
polygraph exams, physical threats in the workplace, privileged 
user and access to the information system, et cetera, across 
the board.
    This is a very important area that you bring up. That said, 
I know that the--and I won't speak for the Director, but he has 
placed an emphasis on the Counterintelligence Mission Center, 
who carries out, along with the Office of Security, programs 
and mission involving insider threat. And I know that the 
Director has taken a particular interest in this area. And they 
have done a lot of work on insider threat.
    But a lot more work needs to be done. And even though I am 
in the process now of issuing a capping report that will 
summarize all the work that we've done, as I described, and 
also add to the affray some additional areas that we've 
examined, that does not mean that I am going back off the issue 
of insider threat. This continues to be an area of challenge 
for the CIA. And in fact, I've emphasized that in my recent 
issuance of the highest challenges that the agency has to 
address. So it's a very important area.
    Senator Collins. I'm very glad to hear that. I would ask 
that you keep the committee fully apprised of your efforts in 
this area and in particular identify to the committee 
recommendations that have not been implemented, because they're 
really--that's really hard to understand, given the egregious 
breaches that have occurred in the intelligence community.
    Mr. Sharpley. Yes, Senator, I commit to do that.
    Senator Collins. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Sharpley, as we talked about, I am very troubled about 
your decision to return your copy of the torture report. The 
report was sent to your office so that lessons could be 
learned, not just about torture, but a variety of topics, 
including Inspector General oversight.
    I just believe your decision sets a terrible precedent for 
the committee's current and future work. If your office and the 
committee are going to be erasing historical records because 
somebody down the road is unhappy about them, our country is 
going to need a lot of erasers.
    So, hypothetically, I'd like to ask you: What if, a few 
years from now, after this committee has sent your office a 
report on Russia's interference in our election, a future chair 
of the committee says he doesn't like the report and wants it 
returned. What would you do?
    Mr. Sharpley. Well, sir, I avoid hypothetical answers to 
hypothetical questions of any course.
    Senator Wyden. Okay, then let me just ask it this way. How 
does your decision not set a terrible precedent?
    Mr. Sharpley. My decision, Senator, was in response to a 
request from the Chair and that's--that was the trigger for my 
returning the report.
    Senator Wyden. So you're obligated to follow the law. I 
don't see why the law doesn't govern this, but maybe I'm 
missing something. I mean, your highest obligation is to follow 
the law, and I guess you're saying that you made your judgment 
on the basis of other factors. You were asked for it and that 
was that.
    But I got to tell you, I don't like the concept of your 
office picking and choosing which investigative reports you're 
going to keep. And that's the inescapable conclusion about all 
this. I followed the business about the shredded disk and then 
you found it, but you still returned it. And I'd like to know 
anything else that may have driven your judgment here?
    Mr. Sharpley. Senator, it's very straightforward. I made an 
independent judgment to return the report at the request of the 
chair of the committee that produced the report.
    Senator Wyden. But you're not concerned about your 
obligation to follow the law and you're not concerned about a 
precedent? I mean, it seems to me this sets a horrible 
precedent, which is why I asked you about, say, somebody down 
the road in the future saying they're concerned about the 
Russian report. You're not concerned about setting any 
precedent here?
    Mr. Sharpley. No, sir. We're talking about a hypothetical, 
once again, and----
    Senator Wyden. I'm asking you about something that 
conceivably could happen and because of the decision you've 
made, it certainly sets a precedent for in effect your office 
kind of picking and choosing which investigative reports you're 
going to keep.
    I'm going to oppose your nomination because I think our 
highest duty here is to follow the law and the idea that the 
chair asked for it and that governed your judgment isn't 
acceptable to me.
    Now let me ask you one other question if I might. My 
colleagues have mentioned this question of whistleblowers and 
you brought up CIA contractor whistleblowers. Now, this is just 
a yes or no answer: Do you believe that whistleblower 
protections should extend to CIA contractors? This is an area 
where there's been bipartisan interest. My colleague Senator 
Collins over the years has been very interested in 
whistleblowers. So, yes or no, do you believe whistleblower 
protections ought to extend to CIA contractors?
    Mr. Sharpley. Yes, I do.
    Senator Wyden. Okay, making some progress.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Mr. Sharpley, good to see you again. Thanks for the long 
visit we had. We walked through a lot of issues in a private 
and classified setting. I wanted to be able to follow through 
on a couple of those conversations.
    As you know full well, the Office of Inspector General is 
the eyes and ears of this committee. This committee has 
oversight over all the intelligence entities, but we're very 
dependent on the independent investigations, the ongoing 
investigations that are happening within the Inspectors General 
office.
    That's you, so I want to be able to get some clarity from 
you on this as well. Covert operations are especially difficult 
and there is occasionally a perception that ``covert'' doesn't 
mean they have oversight. So do covert operations have 
oversight and should they have oversight, the same as any other 
operation?
    Mr. Sharpley. The answer, Senator--and it's good to hear 
from you again, sir--is yes and they do. I review all covert 
action efforts at least every three years and those reports are 
available to the committee, sir.
    Senator Lankford. Do you have the resources that you need 
to be able to fulfill that requirement to have oversight on 
covert operations?
    Mr. Sharpley. I currently do, Senator.
    Senator Lankford. So you've been there a while. This is a 
season where you--going into a permanent nomination here, you 
have a little more time to be able to focus on things that are 
a longer look. Are there structural changes that you can look 
at, at this point, either within your office or around the 
agency, that you would say we need to take a long look in these 
areas?
    Mr. Sharpley. Yes, Senator, there are. Thank you for the 
question. If I am confirmed, my intent is to do a top to bottom 
review of our organizational structure--that should not worry 
my staff--to ensure that our resources are focused in the right 
places so we can use them most efficiently.
    There are areas of covert action that I believe that we 
could focus, I think, a little more effectively on. And as an 
Acting Inspector General, you don't want to make far-reaching 
organizational changes, particularly if there are others being 
in the nomination process. So if confirmed, I would go ahead 
and look at those programs.
    Senator Lankford. Thank you.
    Let me ask one final question about metrics for success. It 
is a challenge of any organization, especially an organization 
that has such a difficult task as the CIA has, to be able to 
measure success. So for dollars that are invested from the 
American people, that are to be overseen by this committee, and 
that you have the responsibility and oversight of as well, how 
will you work with the agency to break down into individual 
operations and into units within CIA to make sure that they are 
looking at metrics for success, that those metrics are being 
evaluated, whether that's the right measurement to be able to 
use, and that they're actually hitting the target?
    Mr. Sharpley. Yes, Senator. I agree with you that measures 
of effectiveness are very important. We're spending a lot of 
taxpayer funds here on matters that don't see the light of day. 
And I think it's important from a business enterprise 
standpoint and from a risk valuation standpoint, that they 
have--that certainly covert action, and other areas of the CIA 
mission, have measures of effectiveness in place.
    They--those areas are typically examined when we conduct an 
audit or an inspection. And as we spoke, sir, you'll find that 
in many of our reports if they--if they're not there, that 
we'll make a recommendation that goes to the area of, you need 
to look at this and examine whether this is--if this is 
effective or if this is efficient.
    And that really goes to the, if you will, metrics of our 
overall approach, our standards of how we conduct our audits, 
our inspections to a different--in a different respect, our 
investigations. But I think one way of ensuring that an 
organization is running efficiently, or whether it's effective 
is to, again, look at the measures of effectiveness. And I 
commit to continue to look in that area.
    Senator Lankford. That's great. Thank you.
    Mr. Chairman, I yield back.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    Mr. Sharpley, as the deputy and then the Acting IG, did you 
read the Senate Intelligence Committee's full report on the 
CIA's torture and interrogation techniques?
    Mr. Sharpley. Senator, no I didn't.
    Senator Heinrich. Why not?
    Mr. Sharpley. I had no opportunity to read it. The report 
was placed in a classified information system within the Office 
of Inspector General and very shortly thereafter deleted from 
that system. And then the disk we thought was shredded. It was 
not. It had been misplaced.
    Senator Heinrich. It seems to me that it's awfully hard to 
learn the potential lessons of that report if--if it wasn't 
consumed and read and processed in your office.
    Mr. Sharpley. Senator, I have had the opportunity to read 
the unclassified----
    Senator Heinrich. Most of us read the executive.
    Mr. Sharpley. Yes.
    Senator Heinrich. However, there were certainly chapters 
that dealt specifically with the operations of the IG's office 
that, it seems to me, would've been something you'd want to be 
able to process to make sure that, if mistakes were made, they 
weren't made again.
    Did you consider that before returning the report?
    Mr. Sharpley. Senator, again, my decision to return the 
report is not a reflection of the value that I place on the 
report.
    Senator Heinrich. Did you consider reading the report 
before returning the report so that you could do your job more 
effectively?
    Mr. Sharpley. No I did not.
    Senator Heinrich. Why not?
    Mr. Sharpley. I did not have an opportunity to sit down and 
read the report because at the time the--with the timeline, the 
time we found the report, the request, right around that same 
time, had come in requesting the report be returned. I 
accepted----
    Senator Heinrich. But you returned it based on your own 
independent judgment. So you could've taken the time to read 
the report and then return the report.
    Mr. Sharpley. I could have, sir, yes.
    Senator Heinrich. But you chose not to.
    Mr. Sharpley. I chose not to, given the time at hand.
    Senator Heinrich. You said that it was your independent 
judgment to return the report. Walk us through that. That 
doesn't give us a lot of detail. What was your--what was your 
thinking? And what was your legal basis for why you decided 
that?
    Mr. Sharpley. I conducted no legal basis, Senator. I'm not 
an attorney and I did not look at it. It was very 
straightforward. From my standpoint, the conclusion of the 
litigation determined that the report was a Congressional 
document and the chair of the committee that produced the 
report requested that I return it. I made the independent 
judgment to return it.
    Senator Heinrich. Did the vice chair request that you 
return it, or just the chair?
    Mr. Sharpley. I don't recall what the letter said or what 
the request was.
    Senator Heinrich. Did you think through the implications of 
what that might mean for future reports?
    Mr. Sharpley. I don't recall beyond what I've already 
testified to.
    Senator Heinrich. Could you see how people would be 
concerned that a decision in this case might set a precedent 
for future cases?
    Mr. Sharpley. I can understand the concern, yes.
    Senator Heinrich. So with regard to the report itself and 
the loss and then the, finally, finding that report once again, 
the story that it'd been shredded which turned out not to be 
the case, you said it was testified to by a former employee 
that it was essentially a guess. That doesn't inspire a lot of 
confidence in how something as important as this document, as 
important as this report to the IG's operation, would be 
handled within the office.
    Can you speak to how you've addressed that in subsequent--
for subsequent media?
    Mr. Sharpley. Yes, Senator. I'd be pleased to. The 
individual who was responsible for handling the disk is the 
individual who said they shredded it. When we found that disk 
and went back to speak with that individual, who is no longer 
an employee of ours or the CIA, he said--he shrugged his 
shoulders and said: ``It was a guess. I don't actually remember 
seeing it being shredded. I--I just had a stack of media and--
and thought that I shredded it.''
    Senator Heinrich. I can see how an employee would--who had 
a stack of media on their desk would have that reaction. I'm 
just thinking that something as important as this maybe should 
have required a higher level of attention.
    Mr. Sharpley. Yes, sir. So the changes that I referred to 
when we were talking about this earlier, changes I referred to, 
is that I put in place that there must be a supervisory-level 
approval before any media is shredded. So that way if other 
instructions have come out and for some reason it misses the IT 
administrator in the future, there will be a quality assurance, 
if you will, in place to review and authorize the shred, and 
that way we'll avoid something like this happening in the 
future.
    Senator Heinrich. Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Heinrich.
    Before I turn to Senator King real quick: Since most of 
your questions deal with the request I made of this IG and a 
request I made of every agency of the Federal Government that 
had copies of the RDI report, let me set the stage.
    The stage is that this was battled on our behalf by the 
Justice Department of the Obama administration. They didn't 
have to do it. They believed that it was a committee document. 
They fought it in court. We won in the District Court, the D.C. 
Court of Appeals. The last court was the United States Supreme 
Court and they ruled there that this was committee property.
    I appreciate the fact that members disagree with the 
actions of the chairman, but I made a determination when I 
initiated the belief that this was a committee document that 
there was precedent, there was precedent here, and you're right 
the next chairman can determine that they'd like to push this 
out. There was never a committee vote to push this out. That 
was a unilateral decision.
    So I made the decision to pull it back in and, with the 
exception of several copies, all have been returned. In every 
case, lawyers within those agencies made a determination, based 
upon the court process, that I had every right to make the 
request and that they were, in most cases, if not all cases, 
obligated to return them.
    So I share that with you to give you a little bit of 
history and maybe you won't necessarily condemn Mr. Sharpley 
for doing something that I think is extremely important, 
responding to the chairman of the committee.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    Not to belabor this issue too much, but when you made the 
decision to return the document did you consult with anyone? 
Did you consult with the General Counsel or anyone other than 
yourself in making that decision?
    Mr. Sharpley. My counsel, my IG counsel.
    Senator King. And what was the nature of that advice?
    Mr. Sharpley. Just that it was my decision, I was making a 
decision to return this; what are the circumstances surrounding 
the issues, is anything else I should know? And the answer was: 
No, this is your--this is your judgment to respond to the 
chair.
    Senator King. Thank you.
    I think you have one of the most important jobs in the 
United States Government, because a secret agency in a 
democracy is an anomaly. I would argue it's a necessary 
anomaly, but it's still an anomaly, because the transparency 
and accountability that applies to virtually every other aspect 
of the United States Government isn't present by necessity.
    That means those of us, including you and us, who are 
given--the responsibility of providing really the only 
oversight of this agency is especially awesome in my view. And 
I just want to have your commitment that you realize that this 
is a different job qualitatively in my view than the IG of the 
Department of Agriculture or even the Pentagon. Do you 
understand the weight of this, this position?
    Mr. Sharpley. Absolutely, Senator. As I said in my opening 
remarks, it's my belief that programs that are highly 
classified--the more classified they are, they see the less 
light of day. They don't share best practices. They focus on 
mission and they're not necessarily focused on efficiency and 
effectiveness. And I think it's--when you're dealing with those 
types of programs, as I have in Defense with special access 
programs and at Energy with nuclear weapons programs--here at 
CIA, that's all they do, very, very classified areas, very 
classified missions--you need an IG to look at this and shine 
that flashlight, shine that light on those activities to ensure 
that they're adhering to the law, that the programs are being 
run in an efficient and effective manner, and, as I've 
discussed with you in our private discussions, to give the 
taxpayer a seat at the table to make sure that their money, 
hard-earned money, and their taxes are being utilized properly.
    Senator King. And that their Constitution is being abided 
by.
    Mr. Sharpley. That's correct. Yes, sir.
    Senator King. Now, Senator Coburn and I a couple of years 
ago had a provision in the authorization bill that instructed 
the GAO, which has people with full clearance, to do some 
analysis of the siting of physical facilities and whether we 
were efficiently utilizing those facilities. That report 
occurred. Do you view the GAO as a possible ally in your work?
    Mr. Sharpley. Yes, Senator, I do. I understand that GAO is 
working at the request, at the direction of the oversight 
committees. There are policies and procedures that are at CIA 
and across the Office of Director of National Intelligence 
dealing with the work with the GAO.
    I've worked with GAO in the past, and my only concern that 
I have--and this really falls back into my lap--is to reach out 
to GAO when they start work and do work at Central Intelligence 
Agency, that they check with us to ensure that the work that 
we've done--and we may have products that are useful, and this 
would be inefficient if we've already done work, independent 
work in that.
    Senator King. I wouldn't want the GAO to add to the 
inefficiency. I understand your concern. But what you're 
telling me is that you in certain situations would view the GAO 
as an ally, as an asset of your office.
    Mr. Sharpley. Yes, I would.
    Senator King. Thank you. I appreciate that.
    One final question. Do you view checking on or reviewing 
the integrity of the analytic process and the intelligence 
production process as part of your bailiwick in terms of your 
responsibility?
    Mr. Sharpley. Yes, Senator, I do.
    Senator King. I think I want to emphasize that, because 
there's a grave danger. And you indicated, I think, earlier, 
talking about mission and operations, that there's a danger of 
contamination of intelligence product because of commitment to 
the mission, if you will. And again, you're one of the few 
bulwarks against that in this system of oversight of what is 
otherwise a secretive agency.
    Mr. Sharpley. Yes, sir. I agree with that. We do have a 
body of work that we have looked at analytic objectivity. We 
plan in the coming year and out years, if I am confirmed, to 
continue our work in that area. I think it's a very important 
area.
    Senator King. I want to emphasize the importance of that, 
because if you look back over the past 50 years, many of our 
foreign policy disasters were based upon skewed intelligence, 
based upon the desires of the policymakers, whether it was the 
Bay of Pigs, Vietnam, Iraq, whatever. And so I want to really 
emphasize that analytic integrity, it seems to me, and 
objectivity is an absolutely key function because human nature 
is always to tell the boss what they want to hear.
    Mr. Sharpley. Sure.
    Senator King. And you are one of the people that sits 
astride that process, and I hope you'll take that 
responsibility especially seriously.
    Mr. Sharpley. Senator, I understand your concern. I share 
it. You have my commitment to take that--to take on that issue 
and continue to look at it.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, Mr. Sharpley, for being here today.
    Mr. Sharpley. Thank you, sir.
    Senator Manchin. Having your family with you for support, I 
appreciate that. And the fact that you served as Inspector 
General at a variety of levels, maybe you might want to explain 
how that prepared you for the job that we're asking you to do 
or that you're asking us to confirm you to do----
    Mr. Sharpley. Yes, sir.
    Senator Manchin [continuing]. That put you in that unique 
position.
    Mr. Sharpley. Yes, sir. Thank you, Senator, I'd be pleased 
to do that.
    I fortunately had an opportunity many years ago, back in 
the nineties, to be a part of a group, the predecessor of the 
Council of Inspectors General for Integrity and Efficiency, the 
President's Council on Integrity and Efficiency, to be a part 
of the development of the quality standards for investigations 
and the quality standards for inspections. Those standards are 
sort of benchmark best practices for oversight. They have since 
then matured and changed slightly, but the basic practices are 
there.
    When I arrived at CIA IG, the reason I was asked to come 
aboard or compete for the position and come aboard and decided 
to take it was because I wanted to make sure that the processes 
utilized by our inspections, audits, and investigative groups 
use those standards.
    And that's exactly what I did. I've implemented those 
standards across our mission set. Having had the opportunity to 
stand up, be a significant part of standing up, two brand-new 
Offices of Inspector General at the Special Inspector General 
for Troubled Asset Relief Program at Federal Housing and 
Finance Agency, I was able to utilize that knowledge, those 
skills that I had obtained from the previous period of time, 
and put them to work at those organizations. And those 
organizations have been very successful supporting prosecutions 
that have returned billions to the U.S. Treasury. That same 
approach I've used at CIA Office of Inspector General.
    Senator Manchin. Let me just--a couple of things I want to 
go over. Being a former governor myself and Senator King here, 
we know how having full control over your budget gives you the 
flexibility to do the things where you think it's most 
important. Do you feel--I'm sure you looked at the budget now. 
Are you siloed? Are you able to move money to where you know 
the critical need is? How important is that for you?
    Mr. Sharpley. Senator--thank you, Senator. The discussion 
that you and I had in this area caused me to sit back on my 
heels, sort of stand back on my heels and reconsider this.
    Senator Manchin. You might want to tell people a little bit 
what we talked about, because there were areas you identified 
you weren't able to do what needs to be done because--but you 
had money in other siloes that could help you do it.
    Mr. Sharpley. Right. There are various siloes. One silo of 
money is used for salaries and awards, the other used for 
contracting and travel, this type of thing.
    Senator Manchin. Yes.
    Mr. Sharpley. And the policy of the CIA is that you can't 
blend those monies. You can't cross the monies across the silo. 
But we had a discussion, I thought it was very productive and I 
appreciated it. And that is--and I appreciate the chair and 
vice chair's advice in this area as well. And that is, if there 
were a way to move money across, it would allow me to address 
issues and needs that I have. For example, when----
    Senator Manchin. Not that you need more money, even though 
everybody needs more money.
    Mr. Sharpley. Everyone needs more money.
    Senator Manchin. But if you don't have more money, how to 
be more efficient.
    Mr. Sharpley. That's correct. This is a discussion on the 
efficient use of money. So I've asked my attorney to address 
this with the agency, to see if there's a way that I can't do 
that. And we are now doubling down and addressing that to see 
if there is a way that we can do it.
    So again, I would ask the----
    Senator Manchin. Let us know if we can help.
    Mr. Sharpley. Yes, sir. And I would ask the committee's 
support if we're not able to do it for a legal reason that I'm 
unaware of. But as it stands currently, I'm going to attack 
this and see if we can do it a little bit more efficiently.
    Senator Manchin. I've got two more quick questions.
    Mr. Sharpley. Yes.
    Senator Manchin. First of all, the most important: What do 
you think is the greatest security risk that the United States 
of America faces?
    Mr. Sharpley. Well, outside of the threats to our Nation--
--
    Senator Manchin. Yes----
    Mr. Sharpley [continuing]. Whether it be----
    Senator Manchin [continuing]. That are obvious.
    Mr. Sharpley. Yes. Outside of the threats, it is ensuring 
the integrity of our intelligence programs and that those 
involved in the various intelligence missions remain dedicated 
and true to their oath.
    That is why I have taken or done a lot of work in the area 
of insider threat and how to strengthen the systems of the 
agency to ensure that when people do run astray, staff members 
or contractors, that we have systems in place that work, that 
we can detect it and counter it.
    Senator Manchin. And then finally, if you are asked by the 
President to render your assessment and evaluation, do you feel 
confident you can speak truth to power?
    Mr. Sharpley. I absolutely do feel confident I can speak 
truth to power. And if you would ask the current director and 
the former two directors, they would tell you the same.
    Senator Manchin. Thank you.
    Mr. Sharpley. Yes, sir.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you.
    So I think you know, we all know, that it's very important 
that politics not shape the work that we do in our intelligence 
agencies and in the intelligence community. Can you tell this 
committee whether as Acting IG, if you've ever been asked or 
experienced any effort to limit your full independence since 
you've been the Acting IG?
    Mr. Sharpley. Thank you, Senator Harris. That is a very 
good question. Senator Harris, I don't know if you remember 
our--when you were Attorney General in California, I worked at 
SIGTARP and you were very helpful, and I thank you again for 
your----
    Senator Harris. Thank you.
    Mr. Sharpley [continuing]. Help there. There has never been 
a time under any director that I've worked--or am I aware of, 
anyone trying to undermine the independence of this Office of 
Inspector General. I think it's very clear that the reputation 
that I've built at CIA, that that is something that I don't 
think anyone would attempt.
    But certainly, independence is written into the very fabric 
of our processes. At every opportunity, conferences, 
onboarding, new employees, etcetera, we emphasize the 
importance of independence. I know that this director, Director 
Pompeo, is very aware of that and I'm sure very supportive of 
my independence.
    Senator Harris. And will you commit to this committee that 
if ever you are in any way talked with or anyone indicates that 
they hope you might do one thing or another, that you will 
report that to this committee?
    Mr. Sharpley. Absolutely, Senator. You have my commitment.
    Senator Harris. And have you--I believe in fact that you 
have faced some resistance that has prevented you from getting 
access to information that you need to fully assess a situation 
in terms of performing your oversight responsibilities. Will 
you commit today to notifying this committee if in the future 
you face any resistance whatsoever in your efforts to obtain 
information that is necessary for you to pursue your 
responsibilities?
    Mr. Sharpley. Senator, I do commit to that. I'm unaware of 
any circumstance since I've been the Acting Inspector General 
or as deputy where anybody has either encumbered or tried to or 
have been successful at not providing us the information we 
need to do our important oversight role.
    Senator Harris. Well, please rely on this committee to help 
you if you need help in accomplishing that goal.
    Mr. Sharpley. Thank you, Senator.
    Senator Harris. And there's been a lot of discussion about 
whistleblowers. I understand that you have not or were not 
aware of the POGO, the Project on Government Oversight, report 
that was released yesterday regarding three open cases 
involving allegations that you and others committed retaliation 
against whistleblowers. But, obviously, this is a serious 
concern.
    I'm going to assume that right after this hearing you're 
going to familiarize yourself with what's in that report. And 
my request to you is that you then immediately, and before we 
need to vote on your confirmation, report back to this 
committee in writing your analysis and your perspective on the 
contents of that report. Are you willing to do that?
    Mr. Sharpley. Senator, I don't want to--I want to make sure 
that I don't conflate the two. There was a POGO article that 
refers to a report that was written by the ICIG. I'm unfamiliar 
with the report from the ICIG.
    With respect to the POGO article, I am aware of that they 
cite the complaints that are against me on retaliation just 
because it was brought up in this hearing. I'm unaware of any 
ongoing investigations or the details of any complaints and 
have no--no action, or conclusions of wrongdoing have been made 
about my career or anything that I've done.
    Senator Harris. So as it relates then to the ICIG letter 
that was referred to earlier by Senator Feinstein, will you 
familiarize yourself with the contents of that and report back 
to this committee your perspective on what that says about 
these three cases?
    Mr. Sharpley. Yes, Senator. I commit to doing that.
    Senator Harris. Okay. And you obviously understand that 
when we are talking about the importance of whistleblowers, for 
those folks to come forward and report what they know it's an 
intimidating process. They are putting their jobs on the line. 
They are certainly opening themselves up to the likelihood of 
retaliation and if they don't have confidence in the system, it 
is likely, one, that they will not report to the IG; but two, 
equally likely that, wanting their information to get out and 
to have transparency and sunlight on the issue, that they are 
even prone probably to leak that information to the press.
    So we are talking often, however, about classified 
information, which creates its own problems when that 
classified information is leaked to the press. So will you 
commit to improving and strengthening the systems that are 
currently in place to ensure that there is no retaliation 
whatsoever when whistleblowers come forward?
    Mr. Sharpley. Senator, I can investigate concerns about 
retaliatory actions and I commit to you that we will 
continually improve upon our systems and our programs in place.
    Senator Harris. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Harris.
    Any member seek any additional questions? Seeing none----
    Vice Chairman Warner. Can I just ask one question?
    Chairman Burr. Vice Chairman.
    Vice Chairman Warner. Mr. Sharpley, a lot of concern about 
whistleblower issues and I understand--my understanding at 
least, if there is an ICIG, you might not be aware of the 
contents of that, that investigation in the normal course.
    But one thing that I've looked at--and I didn't offer this 
amendment earlier because there was not full-fledged support, 
but that there would be granted to the IC, to the IC community, 
stay authority, which I know you are familiar with, which in 
effect would make sure that a whistleblower would be able to 
request the head of the agency to hold harmless a valid 
whistleblower from being reprised, retaliated against.
    Most all the rest of the Federal Government has those kind 
of stay authority protections. I know we talked about this 
briefly in my office. Do you believe that the employees--even 
though that this is not going to be in law, but do you believe 
that the employees at CIA ought to have this type of protection 
that every other Federal employee has had since 2001?
    Mr. Sharpley. Senator, I support any improvement on 
protections to whistleblowers. I fully support them. I am not 
aware in my five-plus years at CIA where having stay authority 
would have changed the circumstance. That doesn't mean that 
something couldn't happen in the future where that authority 
could be used effectively. So I do support----
    Vice Chairman Warner. I just believe, in light of some of 
the concerns raised and echoing both Senator Harris and Senator 
King in terms of the importance of this job, our job and your 
job, because of the unique nature of the agency operating in 
secret, I do think going the extra mile that there would be 
this approach, in terms of holding harmless a valid 
whistleblower's complaint against any type of reprisal from the 
agency itself is terribly important. And should you be 
confirmed, I hope that you will--you would bring that message 
back to the agency.
    Mr. Sharpley. You have my commitment, Senator.
    Vice Chairman Warner. Thank you, Mr. Sharpley.
    Chairman Burr. Thank you, Vice Chairman.
    Mr. Sharpley, thank you for your testimony to the 
committee.
    I will repeat that it's my intention to move this 
nomination next week and I would urge members, if they have 
additional questions, to make those questions available before 
the end of business today.
    Kimberly, thank you for being here to support your husband. 
To you, your children, and to your mother, it's great to have 
you here for this.
    With that, the hearing is adjourned.
    [Whereupon, at 3:52 p.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
